DEPARTMENT OF HOMELAND SECURITY
    Office of Inspector General


      Technical Security Evaluation of 

      U.S. Citizenship and Immigration 

         Services Activities at the 

      Chet Holifield Federal Building





OIG-08-02                       October 2007
                                                          Office of Inspector General
                                                          U.S. Department of Homeland Security
                                                          Washington, DC 20528




                                    October 15, 2007

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

Our report addresses the strengths and weaknesses of the implementation of technical and
information security policies and procedures at U. S. Citizenship and Immigration
Services locations at the Chet Holifield Federal Building, Laguna Niguel, California. It is
based on interviews with employees and officials of relevant agencies and institutions,
direct observations, and reviews of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is
our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the
preparation of this report.




                                     Richard L. Skinner 

                                     Inspector General 

Table of Contents/Abbreviations 



Executive Summary ............................................................................................................ 1 


Background ......................................................................................................................... 2 


Results of Review ............................................................................................................... 4


    Systems Did Not Comply Fully With DHS Operational Control Requirements........... 4 

    Recommendations...........................................................................................................8 

    Management Comments and OIG Analysis ...................................................................8 



    Systems Did Not Comply Fully With DHS Technical Control Requirements.............. 9 

    Recommendations.........................................................................................................10

    Management Comments and OIG Analysis .................................................................11 



    Systems Did Not Comply Fully With DHS Management Control Requirements....... 11 

    Recommendations.........................................................................................................16

    Management Comments and OIG Analysis .................................................................16 


Appendices

     Appendix A:             Purpose, Scope, and Methodology .....................................................18 

     Appendix B:             Management’s Comments to the Draft Report...................................20 

     Appendix C:             USCIS Novell Servers with Known Vulnerabilities ..........................24 

     Appendix D:             USCIS Windows Servers with Known Vulnerabilities .....................25 

     Appendix E:             Certification and Accreditation Status ..............................................28 

     Appendix F:             USCIS IT Resources in Use but Not Included in Trusted Agent 

                             FISMA ............................................................................................32 

     Appendix G:             Status of Privacy Compliance Activities for USCIS Systems ...........33 

     Appendix H:             Major Contributors to This Report.....................................................36 

     Appendix I:             Report Distribution ............................................................................37 


Abbreviations
     ATO                                    Authorized to Operate     

     CHFB                                   Chet Holifield Federal Building    

     CISO                                   Chief Information Security Officer     

     CSIRC                                  Computer Security Incident Response Center   

     DAA                                    Designated Accrediting Authority     

     DHS                                    Department of Homeland Security       

     DHS Directive 4300A                    DHS Sensitive Systems Policy Directive 4300A 

     DHS 4300A Handbook                     DHS 4300A Sensitive Systems Handbook 

     FBI                                    Federal Bureau of Investigation    

Table of Contents/Abbreviations 



  FISMA         Federal Information Security Management Act
  HVAC          Heating, Ventilation, and Air Conditioning
  ICE           Immigration and Customs Enforcement
  ISA           Interconnection Security Agreement
  IT            Information Technology
  OIG           Office of Inspector General
  PIA           Privacy Impact Assessment
  PTA           Privacy Threshold Analysis
  TA-FISMA      Trusted Agent FISMA
  USCIS         U. S. Citizenship and Immigration Services
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                      We initiated a program to determine the extent to which critical
                      Department of Homeland Security sites comply with the
                      department’s technical and information security policies and
                      procedures. Based on our internal analysis, we selected the Chet
                      Holifield Federal Building located in Laguna Niguel, California,
                      where the U. S. Citizenship and Immigration Services operates the
                      California Service Center and the Western Region field office.

                      Our evaluation focuses on how Citizenship and Immigration
                      Services has implemented computer security operational, technical,
                      and management controls for its information technology resources
                      at this site. We performed onsite inspections of the areas where
                      these resources were located, interviewed department staff, and
                      conducted technical tests of internal controls, e.g., scans for
                      wireless networks. We also reviewed applicable department
                      policies, procedures, and other appropriate documentation.

                      The information technology security controls implemented at this
                      site have deficiencies that, if exploited, could result in the loss of
                      confidentiality, integrity, and availability of their information
                      technology systems. Specifically, Citizenship and Immigration
                      Services needs to improve its physical security, environmental, and
                      business continuity controls for its computer room. Citizenship
                      and Immigration Services also could improve its technical controls
                      by installing the latest patches, disabling unnecessary ports, and by
                      improving network configuration. Additionally, management
                      controls could be improved by completing all required certification
                      and accreditation activities.




     Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                             Page 1

Background
                     We designed our Technical Security Evaluation Program to
                     provide senior Department of Homeland Security (DHS) officials
                     with timely information on whether they had properly
                     implemented DHS information technology (IT) security policies at
                     critical sites. Our program is based on DHS Sensitive Systems
                     Policy Directive 4300A (DHS Directive 4300A), which applies to
                     all DHS components and provides direction to managers and
                     senior executives regarding the management and protection of
                     sensitive systems. DHS Directive 4300A also outlines policies
                     relating to the operational, technical, and management controls that
                     are necessary for ensuring confidentiality, integrity, availability,
                     authenticity, and nonrepudiation within the DHS IT infrastructure
                     and operations. A companion document—the DHS 4300A
                     Sensitive Systems Handbook (DHS 4300A Handbook)—provides
                     detailed guidance on the implementation of these policies.

                     DHS IT security policies are organized under management,
                     operational, and technical controls. According to DHS Directive
                     4300A, these controls are defined as follows:

                              • 	 Operational Controls – Focus on mechanisms
                                  primarily implemented and executed by people. These
                                  controls are designed to improve the security of a
                                  particular system, or group of systems. These controls
                                  require technical or specialized expertise and often rely
                                  on management and technical controls.

                                                          **********

                              • 	 Technical Controls – Focus on security controls
                                  executed by IT systems. These controls provide
                                  automated protection from unauthorized access or
                                  misuse. They facilitate detection of security violations,
                                  and support security requirements for applications and
                                  data.

                                                          **********

                              • 	 Management Controls – Focus on managing both the
                                  IT security system and system risk. These controls
                                  consist of risk mitigation techniques and concerns
                                  normally addressed by management.


    Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                            Page 2

                 Based on our internal analysis, we determined that this technical
                 security evaluation should be performed at a DHS multicomponent
                 location. Based on prior audit coverage of other DHS components,
                 we focused on U. S. Citizenship and Immigration
                 Services (USCIS) locations. Subsequently, we selected the Chet
                 Holifield Federal Building (CHFB) located in Laguna Niguel,
                 California, where the USCIS California Service Center and the
                 USCIS Western Region field office are both located. While the
                 U. S. Customs and Border Protection and U. S. Immigration and
                 Customs Enforcement (ICE) also operated in this facility, their
                 activities will be addressed in separate evaluation reports.




Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building

                                        Page 3
Results of Review

     Systems Did Not Comply Fully With DHS Operational
     Control Requirements
                      Some operational controls that USCIS implemented at CHFB did
                      not conform to DHS policies; these included physical security, and
                      environmental and business continuity controls. The business
                      continuity deficiencies are particularly significant and place
                      USCIS at risk of not being able to access IT assets and data when
                      necessary. Collectively, the deficiencies identified below could
                      place at risk the confidentiality, integrity, and availability of the
                      data stored, transmitted, and processed by USCIS at CHFB.

                      Physical Security Controls

                      While USCIS has implemented some physical security access
                      controls, including the use of badges, card readers, and locked
                      entrances, physical security could be strengthened at their CHFB
                      computer room. Examples of situations that need attention follow:

                           • 	 USCIS needs more physical security controls to limit
                               access to stored materials. Currently, once staff enter the
                               controlled area, they have access to controlled paper,
                               sensitive printouts, backup tapes, routers, printers, and
                               servers and the telecommunications closet in the computer
                               room. Figure 1 illustrates how printouts are not segregated
                               and restricted, but are commonly placed on a table near the
                               entrance to the computer room. Nearby, USCIS places
                               daily backup tapes for couriers.




                                        Figure 1: Computer Room printout desk


     Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                             Page 4

                     • 	 Server racks and telecommunication closets are left either
                         unlocked or with the key in the lock. For example, a
                         cabinet containing equipment owned by the Federal Bureau
                         of Investigation (FBI) was closed, but the key was inserted
                         in the lock. Anyone with access to the room had access to
                         the FBI’s router, as Figures 2 and 3 below show.




                                   Figure 2: FBI router cabinet with key in door




                                       Figure 3: Inside of FBI router cabinet

                     • 	 A USCIS official said that the cyber locks for the
                         telecommunications closets have not been changed in 3
                         years. Using cyber locks that have not been changed on a


Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building

                                        Page 5
                          regular basis could leave the USCIS IT assets vulnerable to
                          loss, theft, destruction, sabotage, or compromise.

                 The examples mentioned above increase the risk of unauthorized
                 access to potentially sensitive information and accidental loss of
                 power or damage to IT resources at CHFB.

                 According to the DHS 4300A Handbook:

                          To protect sensitive information and limit the damage that
                          can result from accident, error, or unauthorized use, the
                          principle of least privilege must be applied. The principle
                          of least privilege requires that users be granted the most
                          restrictive set of privileges (or lowest clearance) needed for
                          performance of authorized tasks—i.e., users should be able
                          to access only the system resources needed to fulfill their
                          job responsibilities.

                 Environmental Controls

                 USCIS should maintain its environmental operational controls at
                 proscribed levels by adjusting the heating, ventilation, and air
                 conditioning (HVAC) temperature controls in the computer and
                 telecommunications rooms, in accordance with agency guidance.
                 This is especially a concern for the USCIS computer room, which
                 had temperatures above 70 degrees in February. After we reported
                 this information to USCIS, immediate action was taken to reset the
                 air conditioning controls appropriately.

                 Additionally, USCIS’ communications equipment was also at risk
                 of failure because of the absence of temperature or humidity
                 sensors in the telecommunications closets.

                 According to the DHS 4300A Handbook:

                          Temperatures in computer storage areas should be held
                          between 60 and 70 degrees Fahrenheit.

                 The absence of temperature and humidity sensors and proper
                 HVAC settings for IT equipment increases the risk that USCIS’ IT
                 assets may break down.




Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building

                                        Page 6
                 Business Continuity

                 USCIS’ business continuity capability also needs to be improved at
                 CHFB. We identified several issues involving USCIS resources in
                 room 2102, including:

                     • 	 An alternate process site has not been identified;
                     • 	 There is no backup electrical generator to be used in case of
                         a power failure;
                     • 	 There is only one electrical conduit providing power to the
                         USCIS server room;
                     • 	 USCIS has not provided redundancy for several servers;
                     • 	 Several servers are not being backed up;
                     • 	 Several servers are not connected to a redundant power
                         distribution unit; and
                     • 	 One of the power distribution units is not connected to the
                         emergency power-off switch.

                 To give an example in detail, a power distribution unit’s display
                 was broken. However, USCIS could not shut this unit down to
                 replace the display without shutting down some servers.
                 Additionally, the need to connect all power distribution units to the
                 emergency cut-off switch is related to USCIS’ use of a water-based
                 fire-suppression system. If all power distribution units are not
                 connected to the emergency shut-off switch, the IT resources that
                 are still receiving power when the sprinklers are activated are at
                 increased risk of short circuit during a fire.

                 Additionally, there is an increased risk from a hardware failure,
                 e.g., a disk crash, could prevent USCIS employees from
                 performing their assigned duties if servers are not backed up or
                 have other redundant capabilities. Further, USCIS cannot ensure
                 that its IT resources will be available when needed without backup
                 generators and an alternate processing facility.

                  According to the DHS 4300A Handbook:

                          Care must be taken to ensure systems are designed with no
                          single points of failure…DHS must have the capability to
                          ensure continuity of essential functions under all
                          circumstances.




Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building

                                        Page 7
        Recommendations
                 We recommend that the USCIS CIO take the following actions for
                 USCIS activities at CHFB:

                 Recommendation #1: Implement stronger physical security and
                 environmental controls to protect USCIS’ IT assets from possible
                 loss, theft, destruction, accidental damage, hazardous conditions,
                 fire, malicious actions, and natural disasters.

                 Recommendation #2: Implement business continuity of
                 operations capability for USCIS facilities at CHFB, including the
                 installation of a backup power supply, the connection of all power
                 distribution units to the emergency power-off control, and the
                 elimination of single points of failure.

        Management Comments and OIG Analysis
                  We obtained written comments on a draft of this report from the
                  USCIS CIO. We have included a copy of the comments in their
                  entirety at Appendix B.

                  In the comments, the CIO concurred with findings and
                  recommendations one and two in our report. The CIO also stated
                  that USCIS has a plan to improve operational and physical
                  security for IT at CHFB. However, USCIS also stated that, “The
                  plan will be executed when funding is available.” This
                  recommendation will be considered resolved but open pending
                  verification of planned actions.

                  The USCIS response to recommendation two discussed a
                  Continuity of Operations plan to move processing to a
                  ‘devolution’ site.’ We expect the plan of action and milestones
                  for this recommendation to include the establishment of a
                  devolution agreement with the Vermont Service Center and
                  testing of this capability. We also agree with USCIS that the
                  establishment of an uninterruptible power supply is an issue that
                  all the tenants in the CHFB facility should work to resolve.
                  Finally, upon receiving these management comments, we again
                  contacted the USCIS support staff in CHFB. They confirmed that
                  one of the power distribution units is still not connected to the
                  emergency cut-off switch. This recommendation will be
                  considered resolved but open pending verification of planned
                  actions.


Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building

                                        Page 8
          Systems Did Not Comply Fully With DHS Technical Control
          Requirements
                            USCIS’ implementation of technical controls did not conform to
                            DHS policies involving configuration management of operating
                            systems and their router, as well as password management
                            requirements. These deficiencies increase the risk that USCIS IT
                            systems used at CHFB are vulnerable to internal attacks.

                            Operating System Configuration Management

                            Unsupported operating systems were running on USCIS’ servers at
                            CHFB. Specifically, some USCIS servers were running a release
                            of the Novell operating system that has not been supported by
                            Novell since 2004. Other USCIS servers were running Microsoft
                            Windows NT 4.0, which is no longer supported by Microsoft.
                            Operating systems that are not supported by their vendors do not
                            receive updates or “patches” when a vulnerability or exploitation
                            has been identified.

                            Additionally, our technical scans identified USCIS servers with
                            known vulnerabilities.1 For example, even though all DHS
                            components were required by the DHS Computer Security Incident
                            Response Center (CSIRC) to apply the patch MS06-040 by
                            August 17, 2006, we identified 26 servers that were missing this
                            patch.

                            According to DHS Directive 4300A:

                                     Components shall manage systems to reduce vulnerabilities
                                     through vulnerability testing, promptly installing patches,
                                     and eliminating or disabling unnecessary services, if
                                     possible.

                            According to the DHS 4300A Handbook:

                                     DHS Components must have provisions for reacting
                                     quickly as these critical patches are identified and released
                                     by the DHS CSIRC.




1
    See Appendices C and D for an inventory of USCIS servers with known vulnerabilities.
          Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                                   Page 9

                 Router Configuration Management Controls

                 USCIS’ router at CHFB is vulnerable to a wide range of attacks
                 because they were running older versions of the Simple Network
                 Management Protocol. Further, this router was not properly
                 configured to prevent an “insider” from gaining unauthorized
                 privileges and information. For example, telnet was being used on
                 the USCIS router. However, telnet does not encrypt login and
                 password credentials. This may allow an attacker to capture login
                 credentials and remotely take control of the router and change or
                 delete configuration files.

                 According to DHS Directive 4300A:

                          Telnet shall not be used to connect to any DHS computer.
                          A connection protocol such as Secure Shell (SSH) that
                          employs secure authentication (two factor, encrypted, key
                          exchange, etc.) and is approved by the Component shall be
                          used instead.

                 Password Management Requirements

                 USCIS’ password policies did not conform to DHS Directive
                 4300A or were not consistently applied to all USCIS’ servers.
                 Specifically, the policies for password length, history, and age
                 were not consistent on all USCIS servers. Additionally, there were
                 accounts where the password had never been changed, or where
                 the password would never expire.

                 According to the DHS 4300A Handbook:

                          Passwords are important because they are often the first
                          line of defense against hackers or insiders who may be
                          trying to obtain unauthorized access to a computer system
                          … Passwords shall be at least 8 characters in length [and]
                          shall be changed or expire in 180 days or less.

        Recommendations
                 We recommend that the USCIS CIO take the following actions for
                 USCIS activities at CHFB:

                 Recommendation #3: Develop a migration plan to transition
                 from unsupported operating systems to new systems for which
                 DHS has a Secure Baseline Configuration Guide.

Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building

                                        Page 10
                         Recommendation #4: Implement the password policy established
                         by DHS directive 4300A.

                         Recommendation #5: Use a connection protocol that employs
                         secure authentication.

                         Recommendation #6: Eliminate or disable unnecessary services
                         from their servers.

                         Recommendation #7: Develop a process for implementing
                         identified patches in a timely fashion.

                 Management Comments and OIG Analysis
                          In the comments, the CIO concurred with these recommendations
                          and also reported steps that USCIS has taken to resolve these
                          issues. We believe that the actions that USCIS has taken and
                          plans to take will resolve the reported issues. These
                          recommendations will be considered resolved but open pending
                          verification of reported actions.

        Systems Did Not Comply Fully With DHS Management Control
        Requirements
                         USCIS’ implementation of management controls at CHFB did not
                         conform to DHS policies. Specifically, there are deficiencies in
                         system accreditation, implementation of wireless devices, missing
                         interconnection security agreements (ISA), and privacy
                         compliance activities related to personal information.2 These
                         management control deficiencies increase the risk to USCIS IT
                         investments, systems, and data from new threats and vulnerabilities
                         for which safeguards have not been implemented.




2
 Laws that govern DHS' use of personal information include the Homeland Security Act of 2002, § 222,
6 U.S.C. § 142; the Privacy Act of 1974, 5 U.S.C. § 552a; and the E-Government Act of 2002, § 208,
44 U.S.C. § 3501 note.
         Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                               Page 11

                          System Accreditation Deficiencies

                          USCIS currently is using 21 systems at CHFB.3 However, only 7
                          of the 21 (33%) are currently authorized to operate.4 The
                          authorization to operate has expired for nine (43%) systems and
                          USCIS has not started the accreditation process for the remaining
                          five (24%) systems. See Figure 4 below.


                                                     Accreditiation Status

                                               for USCIS Systems In Use at the

                                                Chet Holifield Federal Building


                                                                  24%
                                                                                         Not Started

                                        43%                                              Authorized to
                                                                                         Operate
                                                                                         Expired

                                                                33%
                                                            Figure 4

                          Additionally, 3 of the 7 (43%) systems that are authorized to
                          operate have expired risk assessments. USCIS Designated
                          Accrediting Authorities (DAA) cannot determine if security
                          controls for USCIS systems and data are adequate unless risk
                          assessments are performed regularly.




3
  An additional system, the Laguna Administrative Center, is currently in the USCIS TA-FISMA Inventory. 

However, this system was not included in this report’s inventory because ICE and USCIS are in the process 

of determining who has responsibility for this system. 

4
  See Appendix E, Accreditation and Risk Assessment Status for USCIS Systems, for details. 

         Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                                Page 12

                          According to DHS Directive 4300A:

                                   Components shall conduct risk assessments whenever
                                   significant changes to the system configuration or to the
                                   operational/threat environment have been made, or every 3
                                   years, whichever occurs first.

                          Further, USCIS management cannot be assured that IT systems
                          and data are adequately secured unless the various activities
                          leading to accreditation are performed and the DAA has accepted
                          in writing the risks associated with operating the systems.

                          According to DHS 4300A Handbook:

                                   The initial Risk Assessment is updated and revised and
                                   becomes the final Risk Assessment as part of the overall
                                   accreditation process after the controls are implemented
                                   and tested and the results/corrective actions are
                                   implemented. Through the development of the final Risk
                                   Assessment, the definition of the program residual risk can
                                   be determined for the DAA’s acceptance during
                                   accreditation.

                          We also identified four additional IT resources that USCIS had not
                          previously included in the DHS’ Trusted Agent FISMA
                          (TA-FISMA) reporting tool.5 Staff from USCIS and the office of
                          the DHS Chief Information Security Officer (CISO) are in the
                          process of determining if these IT resources should be part of the
                          accreditation process. 6 IT resources that are not included in the
                          accreditation process may not be adequately secured, increasing
                          the risk to USCIS systems and data.

                          According to DHS 4300A Handbook:

                                   For operational systems, the DAA makes a risk-based
                                   decision either to grant full authorization to operate or
                                   deny authorization to operate.




5
  DHS uses an enterprise management tool, Trusted Agent FISMA, to collect and track data related to all
Plans of Action and Milestones, including self-assessments, and certification and accreditation data.
6
  See Appendix F, USCIS IT Resources In Use But Not Included In Trusted Agent-FISMA, for names of
these IT resources.
         Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                                 Page 13

                 Misconfigured Wireless Devices

                 USCIS’ onsite implementation of management controls at CHFB
                 did not ensure that its wireless devices were properly configured.
                 Specifically, wireless keyboards and mice were attached to devices
                 belonging to the Western Region Office, which is one of the IT
                 Resources not in TA-FISMA. These wireless devices were
                 running Wired Equivalent Privacy, which is the oldest version of
                 the wireless security protocol. This security protocol version is
                 vulnerable to both replay attacks and integrity violations.

                 According to the DHS 4300A Handbook Attachment Q1, Sensitive
                 Wireless Systems:

                          [Wireless Local Area Network] WLAN systems should meet
                          the Wi-Fi Alliance Wireless Protected Access 2 (WPA2)
                          interoperability standard that is based on the Institute for
                          Electrical and Electronics Engineers (IEEE) 802.11i
                          security standard.

                 Missing Interconnection Security Agreements

                 During our fieldwork, we documented several interconnections
                 between USCIS systems and systems operated by other agencies
                 and DHS components. USCIS agrees that the required
                 interconnection security agreements for these systems exist, but
                 they were unable to provide them. Specifically, interconnection
                 security agreements should be established and maintained for
                 connections between the USCIS California Service Center Local
                 Area Network and the following:

                     • 	 The DHS OneNet,
                     • 	 The U. S. Coast Guard Marine Information for Safety and
                         Law Enforcement,
                     • 	 Department of Justice mainframe legacy applications,
                     • 	 The Executive Office of Immigration Review – Court
                         Inquiry information system,
                     • 	 The FBI Integrated Automated Fingerprint Information
                         Systems,
                     • 	 The State Department’s Integrated Visa Allocation

                         Management System, and 

                     • 	 The Pitney Bowes mail information database.

                 Additionally, USCIS should have interconnection security
                 agreements with ICE for IT and telecommunication services.

Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building

                                        Page 14
                          By not establishing and maintaining interconnection security
                          agreements, USCIS may not be aware of new threats or
                          vulnerabilities to the confidentiality, integrity, and availability of
                          its systems and data.

                          According to the DHS 4300A Handbook:

                                  Components shall document interconnections with other
                                  external networks with an Interconnection Security
                                  Agreement (ISA). Interconnections between DHS
                                  Components shall require an ISA when there is a difference
                                  in the security categorizations for confidentiality, integrity,
                                  and availability for the two networks. ISAs shall be signed
                                  by both DAAs or by the official designated by the DAA to
                                  have signatory authority.

                                                              **********

                                  ISAs shall be reissued every three years or whenever any
                                  significant changes have been made to any of the
                                  interconnected systems…ISAs shall be reviewed as a part
                                  of the annual FISMA self-assessment.

                          Incomplete Privacy Compliance Activities

                          USCIS had not completed all privacy compliance activities for
                          USCIS systems in use at CHFB. Specifically, only 3 of 21 (14%)
                          of USCIS systems in TA-FISMA have completed all required
                          privacy compliance activities.7 Further, the Department has
                          validated only 1 of the 16 (6%) Privacy Impact Assessments (PIA)
                          known to be required for these systems. One of the systems
                          without a PIA is the Offshore Migrant Information Tracking
                          System. This system, which contains actual data, is listed in
                          TA-FISMA as a ‘Developmental’ system.

                          According to the DHS Privacy Office’s Privacy Impact
                          Assessments Official Guidance:

                                  The PIA requirement does not provide an exemption for
                                  pilot testing a program or system. If a PIA is ultimately
                                  required for a system, any pilot of that system must have
                                  the PIA completed prior to the pilot launch. This applies
                                  even if the pilot initially plans to use anonymous data but

7
 See Appendix G, Status of Privacy Act Related Activities for USCIS Systems in Use at the Chet Holifield
Federal Building, for detailed information on incomplete Privacy Act activities.
         Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                                Page 15

                                  will use personally identifiable information as it moves out
                                  of pilot.

                         Additionally, while the department has issued three new public
                         notices for systems in use at the CHFB, there are three other legacy
                         System of Records Notices that no longer accurately report the
                         owners of the systems.8

                         USCIS and DHS Privacy Office officials have told us that the
                         Savings Provision of the Homeland Security Act of 2002 allows
                         DHS to rely on legacy system of records notices.9

                 Recommendations
                         We recommend that the USCIS CIO take the following actions for
                         USCIS activities at CHFB:

                         Recommendation #8: Complete the activities required to accredit
                         and authorize IT systems that are in use at CHFB.

                         Recommendation #9: Properly configure wireless devices prior
                         to installation.

                         Recommendation #10: Establish and maintain the required
                         interconnection security agreements.

                         Recommendation #11: Complete privacy impact assessments and
                         publish updated System of Records Notices as needed for systems
                         in use at CHFB.

                 Management Comments and OIG Analysis
                          In the comments, the CIO concurred with these recommendations
                          and also reported steps that USCIS has taken to resolve these
                          issues. Regarding recommendation eight, USCIS stated that all
                          systems were authorized to operate. However, a review of
                          TA-FISMA showed that the systems that were not authorized to

8
  The three legacy Systems of Records Notices are Justice/INS-013, CLAIMS 3/4 (67 FR 64132), 

Justice/INS-031 RNACS (67 FR 20996), and DOT/CG 679 MISLE (67 FR 19612).

9
  According to the Homeland Security Act of 2002, Section 1512, Savings Provision:


        (a) COMPLETED ADMINISTRATIVE ACTIONS. —(1) Completed administrative actions of an
        agency shall not be affected by the enactment of this Act or the transfer of such agency to the
        Department, but shall continue in effect according to their terms until amended, modified,
        superseded, terminated, set aside, or revoked in accordance with law by an officer of the United
        States or a court of competent jurisdiction, or by operation of law.
        Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building

                                                Page 16
                  operate during our fieldwork have now been authorized to operate
                  even though the required certification package has not been
                  completed or the Privacy Impact Assessment has not been
                  performed. We have updated the table in Appendix E to reflect
                  actions that USCIS has taken.

                  Additionally, USCIS reported that APPLES and CASE Status
                  Online were subsystems of CLAIMS 3 LAN. However, a review
                  of TA-FISMA screens, and two CLAIMS 3 LAN artifacts did not
                  list these as subsystems. Separately, USCIS reported that the
                  Western Regional Office is in TA-FISMA. We are aware that
                  USCIS changed the name of the ‘Administrative Center Laguna’
                  to ‘Western Regional Office’ in TA-FISMA in August 2007.
                  However, USCIS has not updated all the TA-FISMA artifacts to
                  reflect this change. Recommendation eight will be considered
                  resolved but open pending verification of planned actions.

                  In addition to their written comments, USCIS staff also informed
                  us that the new Information Systems Security Officer for the
                  Western Regional Office removed the non-compliant wireless
                  keyboards and mice. Recommendation nine will be considered
                  resolved but open pending verification of planned actions.

                  USICS also agreed with recommendations 10 and 11. These
                  recommendations will be considered resolved but open pending
                  verification of planned actions




Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building

                                        Page 17
Appendix A
Purpose, Scope, and Methodology


Purpose, Scope, and Methodology
                             This review is part of a program to evaluate, on an ongoing basis,
                             the implementation of DHS technical and information security
                             policies and procedures at DHS sites. The objective of this
                             program is to determine the extent to which critical DHS sites
                             comply with the department’s technical and information security
                             policies and procedures, according to DHS Directive 4300A and its
                             companion document, the DHS 4300A Handbook.

                             We coordinated the implementation of this technical security
                             evaluation program with the DHS CISO. We mutually agreed to
                             the wording for the Rules of Behavior for the technical testing.10
                             Our entrance and exit conferences were held with USCIS officials
                             at the Office of Information Technology in Washington, DC, and
                             by telephone with CHFB OIT officials.

                             Technical evaluations were performed only after the DHS CISO
                             and USCIS agreed to our negotiated Rules of Behavior. These
                             technical evaluations included
                                    • 	 Security scans of the servers using various software
                                        packages, and
                                    • 	 Scans to determine whether wireless devices were
                                        being used by DHS components.

                             We reviewed applicable DHS and USCIS policies and procedures
                             and USCIS’ responses to our site surveys and technical
                             questionnaires. Prior to performing our onsite review, we used
                             USCIS’ responses to identify occupied space, server rooms, and
                             telecommunications closets. Our onsite review included a physical
                             review of USCIS space and interviews with USCIS staff. Our
                             technical review included onsite reviews of server security policies
                             as well as scans for DHS wireless devices operating at CHFB.
                             Additionally, we reviewed guidance provided by DHS to the
                             components in the areas of patch management, operation systems,
                             and wireless security.

                             We provided USCIS with briefings concerning the results of
                             fieldwork and the information summarized in this report. We
                             conducted this review between February and July 2007.




10
     The Rules of Behavior established the boundaries and schedules for the technical evaluations.
           Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                                   Page 18

Appendix A
Purpose, Scope, and Methodology


                       We performed our work according to the Quality Standards for
                       Inspection of the President’s Council on Integrity and Efficiency
                       and pursuant to the Inspector General Act of 1978, as amended.

                       We appreciate the efforts by DHS management and staff to provide
                       the information and access necessary to accomplish this review.
                       Our points of contact for this report are Frank Deffer, Assistant
                       Inspector General for Information Technology, (202) 254-4100,
                       and Roger Dressler, Director for Information Systems and
                       Architectures, (202) 254-5441. Major OIG contributors to the
                       review are identified in Appendix H.




      Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building

                                              Page 19
Appendix B
Management’s Comments to the Draft Report


Management’s Comments to the Draft Report 





      Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building

                                              Page 20
Appendix B
Management’s Comments to the Draft Report




      Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                              Page 21

Appendix B
Management’s Comments to the Draft Report




      Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                              Page 22

Appendix B
Management’s Comments to the Draft Report




      Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                              Page 23

Appendix C
USCIS Novell Servers with Known Vulnerabilities


USCIS Novell Servers with Known Vulnerabilities 

                            Vulnerability                             Number of USCIS
                                                                          Servers
                                                                     At CHFB With This
                                                                        Vulnerability
         The Lightweight Directory Access Protocol –                         1
         a Null bind entry that allows a user to access
         this protocol anonymously to view files on
         the protocol directory.
         It is possible to guess the community name of                           1
         the remote Simple Network Management
         Protocol.
         An attacker could access the Lightweight                                1
         Directory Access Protocol schema to gain
         information about this protocol server.




      Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                              Page 24

Appendix D
USCIS Windows Servers with Known Vulnerabilities


USCIS Windows Servers with Known Vulnerabilities 

                                                                              Number of USCIS
                                 Vulnerability                                Servers at CHFB
                                                                                 With This
                                                                                Vulnerability
         Messenger service is a security hazard – this service                        1
         may be used to commit a denial of service attack or
         social engineer on the network.
         Arbitrary code can be executed on the remote host due                           9
         to a flaw in the Local Security Authority Server
         Service. This may allow an attacker to execute
         arbitrary code on the remote host with system
         privileges.
         The scanning tool was able to enumerate the network                             1
         share names by connecting the remote host using a
         Null or guest session. This can allow an attacker the
         ability to escalate privileges as well as provide the
         location of critical files.
         The Secure Sockets Layer certificate on the remote                              1
         service expired. This means that the remote
         management cannot guarantee the validity of the
         certificate being accepted.
         Vulnerability exists in the Microsoft Abstract Syntax                           9
         Notation One library that could allow code execution
         on an affected system.
         Buffer overflow vulnerability exists within Microsoft                          26
         Server Service Remote Code Execution, which may
         allow for a remote, anonymous attacker to execute
         arbitrary code on a host.
         Microsoft SQL System Administrator account was not                              2
         password protected. This means that a remote attacker
         can log into the SQL server with administrative
         privileges.
         A Null session occurs when an attacker sends a blank                           20
         username and blank password to try to connect to the
         Inter Process Communications and then an attacker is
         able to gain a list of user names, shares, and other
         sensitive information.




      Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                              Page 25

Appendix D
USCIS Windows Servers with Known Vulnerabilities



                                                                              Number of USCIS
                                 Vulnerability                                Servers at CHFB
                                                                                 With This
                                                                                Vulnerability
         An unspecified remote code execution exists in the                           7
         Simple Network Management Protocol service that
         could allow an attacker to take complete control of the
         affected system.
         Account locked out – users account has been locked                              4
         out due to an excessive number of incorrect login
         attempts. This may indicate that an attacker is trying to
         guess the account’s password through brute force.
         Anonymous File Transfer Protocol is enabled. Access                             3
         to this protocol can lead to attacker gaining information
         about the system that can possibly allow the attacker to
         gain access to the system.
         Buffer overflow exists within Microsoft’s Network                               1
         Connection Manage, which may allow an attacker to
         send a specially crafted request to a vulnerable host to
         cause denial of service.
         Symantec pcAnywhere weak encryption allowed. This                               1
         service provides connectivity to Microsoft Windows
         system. PcAnywhere can be configured to allow
         remote access without encryption or with a weak
         proprietary encryption scheme.
         A user account was detected with no required                                    2
         password. This allows an attacker unauthorized access,
         including the ability to take over and replace processes,
         and access other computers on the network.
         It is possible to make the remote File Transfer Protocol                        1
         server crash by sending the command
         ‘STAT*?AAA…AAA. An attacker may use this flaw
         to prevent a system from distributing files.
         It is possible to anonymously read the event logs of the                        1
         remote Windows 2000. An attacker may use this flaw
         to anonymously read the system logs of the remote
         host.




      Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                              Page 26

Appendix D
USCIS Windows Servers with Known Vulnerabilities



                                                                              Number of USCIS
                                 Vulnerability                                Servers at CHFB
                                                                                 With This
                                                                                Vulnerability
         The Citrix server is configured in a way that may allow                      8
         an external attacker to enumerate remote services.
         The echo service was detected as running. This service                          1
         uses port 7/tcp and can be spoofed into sending data
         from service on one computer to service on another
         computer.
         The service “Routed,” was active on the server’s router                         1
         port. This service uses port 520/tcp or an application
         using routing information protocol, which provides to
         an attacker a host’s routing information.




      Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                              Page 27

Appendix E
Certification and Accreditation Status

  Green: Authorized to      Yellow: Authorization had expired       Red: Authorization work has
  Operate (during           (during fieldwork)                      not started
  fieldwork)



Certification and Accreditation Status 

TA-FISMA            System Name                  Risk             Accreditation          Current
 Identifier                                   Assessment             Status            Accreditation
                                                Status                                    Status
CIS-00054       Benefits Biometrics           Completed         Authorized to              ATO
MAJ-00054       Support System                                  Operate (ATO)
                (BBSS)
CIS-00057       Citizenship and               Completed                ATO                  ATO
MAJ-00057       Immigration
                Service Centralized
                Oracle Repository
                (CISCOR)
CIS-00081       National File                 Completed                ATO                  ATO
MAJ-00081       Tracking System
                (NFTS)
CIS-00087       Scheduling and                Completed                ATO                  ATO
MAJ-00087       Notification of
                Applicants for
                Processing (SNAP)
CIS-00084       RAFACS - Receipt                Expired                ATO                  ATO
MAJ-00084       and Alien File
                Accountability and
                Control System,
                Version 2.9
CIS-00085       Reengineered                    Expired                ATO                  ATO
MAJ-00085       Naturalization
                Application
                Casework System
                (RNACS)
CIS-00086       Refugee, Asylum,                Expired                ATO                  ATO
MAJ-00086       and Parole System
                (RAPS)




       Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                               Page 28

Appendix E
Certification and Accreditation Status

  Green: Authorized to      Yellow: Authorization had expired       Red: Authorization work has
  Operate (during           (during fieldwork)                      not started
  fieldwork)




TA-FISMA            System Name                  Risk             Accreditation          Current
 Identifier                                   Assessment             Status            Accreditation
                                                Status                                    Status
CIS-00073       Integrated Card               Completed              Expired           ATO signed
MAJ-00073       Production System                                                      on 7/30/2007
                (ICPS) (formerly                                                          without
                Integrated                                                               complete
                Document                                                               certification
                Production (IDP)).                                                       package
                Subsystem:
                National Production
                Results (NPR)
CIS-00109       Fraud Detection               Completed              Expired           ATO signed
MAJ-00109       and National                                                           on 7/30/2007
                Security Data                                                            without
                System (FDNS DS)                                                        complete
                                                                                       certification
                                                                                         package
CIS-00056       Alien File/Central              Expired              Expired           ATO signed
MAJ-00056       Index System (A-                                                       on 7/30/2007
                File/CIS)                                                                without
                                                                                        complete
                                                                                       certification
                                                                                         package
CIS-00058       CLAIMS 3                        Expired              Expired           ATO signed
MAJ-00058       Mainframe -                                                            on 7/31/2007
                Computer Linked                                                          without
                Application                                                             complete
                Information                                                            certification
                Management                                                               package
                System Mainframe
CIS-00059       CLAIMS3 LAN -                   Expired              Expired           ATO signed
MAJ-00059       Computer Linked                                                        on 8/01/2007
                Application                                                              without
                Information                                                             complete
                Management                                                             certification
                System 3 LAN.                                                            package




       Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                               Page 29

Appendix E
Certification and Accreditation Status

     Green: Authorized to    Yellow: Authorization had expired     Red: Authorization work has
     Operate (during         (during fieldwork)                    not started
     fieldwork)




TA-FISMA             System Name                 Risk            Accreditation         Current
 Identifier                                   Assessment            Status           Accreditation
                                                Status                                   Status
CIS-00060        CLAIMS4                       Expired               Expired         ATO signed
MAJ-00060        Computer Linked                                                     on 7/30/2007
                 Application                                                            without
                 Information                                                           complete
                 Management                                                          certification
                 System 4                                                              package
CIS-00062        Customer                       Expired              Expired         ATO signed
MAJ-00062        Relationship                                                        on 7/31/2007
                 Interface System                                                       without
                 (CRIS)                                                                complete
                                                                                     certification
                                                                                       package
CIS-00092        California Service             Expired              Expired         ATO signed
GSS-00092        Center (CSC).                                                       on 7/30/2007
                                                                                        without
                                                                                       complete
                                                                                     certification
                                                                                       package
CIS-00064        Electronic Filing            In Progress            Expired          Two year
MAJ-00064        System (E Filing)                                                   ATO signed
                                                                                     on 7/31/2007
                                                                                      without a
                                                                                      validated
                                                                                        Privacy
                                                                                        Impact
                                                                                     Assessment11
CIS-00153        Alien Change of              Completed           Not Started        ATO signed
MAJ-00153        Address (AR-11)                                                     on 7/30/2007
                                                                                        without
                                                                                       complete
                                                                                     certification
                                                                                       package




11
  According to the DHS 4300A Handbook, interim authorizations to operate are only allowed for systems
in development testing and prototype systems.
         Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building

                                               Page 30
Appendix E
Certification and Accreditation Status

  Green: Authorized to      Yellow: Authorization had expired       Red: Authorization work has
  Operate (during           (during fieldwork)                      not started
  fieldwork)




TA-FISMA            System Name                  Risk             Accreditation          Current
 Identifier                                   Assessment             Status            Accreditation
                                                Status                                    Status
CIS-03370       Offshore Migrant              Not Started          Not Started          Not Started
MAJ-03370       Information
                Tracking System
                (OMITS)
(Not in TA      Automated
FISMA)          Premium Process
                LAN E-Mail System
                (APPLES)
(Not in TA      CASE Status Online
FISMA)
(Not in TA      Center Activity
FISMA)          Tracking System
                (CATS)




       Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                               Page 31

Appendix F
USCIS IT Resources in Use but Not Included in Trusted Agent FISMA


USCIS IT Resources in Use but Not Included in Trusted Agent
FISMA

                                            IT Resource Name
                 CIS Training calendar
                 Project Aware
                 CIS Western Region Office12
                 Enterprise Digital Mail Meter System




12
     USCIS has created an entry in TA-FISMA for this system but has not updated all the associated artifacts.
          Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                                    Page 32

Appendix G
Status of Privacy Compliance Activities for USCIS Systems

  Green: In                 Yellow: DHS work has been              Red: DHS work has not
  compliance.               started.                               started.



Status of Privacy Compliance Activities for USCIS Systems 

 TA-FISMA            System Name            Privacy        Privacy       Has the Privacy       Applicable
  Number                                   Threshold       Impact             Impact            System of
                                            Analysis      Assessment       Assessment         Record Notice
                                             (PTA)          (PIA)           (PIA) Been        According to
                                                          Required?      Submitted to the     DHS Privacy
                                                                           DHS Privacy           Office
                                                                             Office for
                                                                           Validation?
CIS-00056       Alien File/Central        PTA              PIA           Yes. Reviewed        DHS-USCIS
MAJ-00056       Index System (A-          completed       required       and Approved.        001 A-File –
                File/CIS)                                                                     CIS
                                                                                              (72 FR 1755)
                                                                                              (Supersedes:
                                                                                              Justice/INS
                                                                                              001A)
CIS-00092       California Service        PTA             No PIA         NA                   NA
GSS-00092       Center (CSC).             Completed       required


CIS-00081       National File Tracking    PTA              No PIA is     NA                   DHS-USCIS
MAJ-00081       System (NFTS)             Completed       required                            001 A-File –
                                                                                              CIS
                                                                                              (72 FR 1755)
CIS-03370       Offshore Migrant          PTA              PIA           No                   DOT/CG 679
MAJ-03370       Information Tracking      completed       required                            MISLE
                System (OMITS)                                                                (67 FR 19612)

CIS-00153       Alien Change of           PTA              PIA           No                   Justice/INS
MAJ-00153       Address (AR-11)           completed       required                            013,
                                                                                              CLAIMS 3/4
                                                                                              (67 FR 64132)
CIS-00109       Fraud Detection and       PTA              PIA           PIA is in            Justice/INS
MAJ-00109       National Security Data    Complete        required       progress for         013,
                System (FDNS DS)                                         FDNS DS              CLAIMS 3/4
                                                                                              (67 FR 64132)
CIS-00087       Scheduling and            PTA             PIA            No                   Justice/INS
MAJ-00087       Notification of           completed       required,                           013,
                Applicants for                            covered by                          CLAIMS 3/4
                Processing (SNAP)                         CLAIMS 3                            (67 FR 64132)
CIS-00086       Refugee, Asylum, and      PTA              PIA           No                   DHS-USCIS
MAJ-00086       Parole System (RAPS)      completed       required                            001 A-File -
                                                                                              CIS
                                                                                              (72 FR 1755)




      Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                              Page 33

Appendix G
Status of Privacy Compliance Activities for USCIS Systems

    Green: In                 Yellow: DHS work has been               Red: DHS work has not
    compliance.               started.                                started.



  TAF                 System Name               Privacy       Privacy        Has the Privacy          Applicable
 Number                                        Threshold       Impact       Impact Assessment          System of
                                                Analysis     Assessment         (PIA) Been           Record Notice
                                                 (PTA)          (PIA)        Submitted to the        According to
                                                             Required?        DHS Privacy            DHS Privacy
                                                                            Office for Review?          Office

CIS-00085     Reengineered                    PTA             PIA           No                       Justice/INS
MAJ-00085     Naturalization Application      completed      required                                031 RNACS
              Casework System (RNACS)                                                                (67 FR 20996)
CIS-00084     RAFACS - Receipt and            PTA             PIA           No                       Justice/INS
MAJ-00084     Alien File Accountability       completed      required                                013,
              and Control System, V 2.9                                                              CLAIMS 3/4
                                                                                                     (67 FR 64132)
CIS-00073     Integrated Card                 PTA             PIA           No                       Justice/INS
MAJ-00073     Production System (ICPS)        completed      required                                013,
              (formerly Integrated                                                                   CLAIMS 3/4
              Document Production                                                                    (67 FR 64132)
              (IDP)).
CIS-00062     Customer Relationship           PTA             PIA           No                       Justice/INS
MAJ-00062     Interface System (CRIS)         completed      required                                013,
                                                                                                     CLAIMS 3/4
                                                                                                     (67 FR 64132)
CIS-00060     CLAIMS4 - Computer              PTA             PIA           No                       Justice/INS
MAJ-00060     Linked Application              completed      required                                013,
              Information Management                                                                 CLAIMS 3/4
              System 4                                                                               (67 FR 64132)
CIS-00059     CLAIMS3 LAN                     PTA             PIA           No                       Justice/INS
MAJ-00059     Computer Linked                 completed      required.                               013,
              Application Information                                                                CLAIMS 3/4
              Management System 3                            PIA being                               (67 FR 64132)
              LAN.                                           drafted.
CIS-00058     CLAIMS 3 Mainframe -            PTA             PIA           No                       Justice/INS
MAJ-00058     Computer Linked                 completed      required                                013,
              Application Information                                                                CLAIMS 3/4
              Management System                                                                      (67 FR 64132)
              Mainframe
CIS-00057     Citizenship and                 PTA            PIA            No                       Justice/INS
MAJ-00057     Immigration Service             completed      required,                               013,
              Centralized Oracle                             covered by                              CLAIMS 3/4
              Repository (CISCOR)                            CLAIMS 3                                (67 FR 64132)
CIS-00054     Benefits Biometrics             PTA            PIA             *                       DHS/USCIS
MAJ-00054     Support System (BBSS)           completed      required                                003 BSS
                                                                                                     (72 FR 17172)
* DHS has not provided the Privacy Impact Assessment for this system.




         Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                                 Page 34

Appendix G
Status of Privacy Compliance Activities for USCIS Systems

   Green: In                Yellow: DHS work has been               Red: DHS work has not
   compliance.              started.                                started.


  TAF               System Name               Privacy       Privacy        Has the Privacy          Applicable
 Number                                      Threshold       Impact       Impact Assessment          System of
                                              Analysis     Assessment         (PIA) Been           Record Notice
                                               (PTA)          (PIA)        Submitted to the        According to
                                                           Required?        DHS Privacy            DHS Privacy
                                                                          Office for Review?          Office

CIS-00064   Electronic Filing System (E     PTA             PIA            PIA not yet             Justice/INS
MAJ-00064   Filing)                         completed      required       validated.               013,
                                                                                                   CLAIMS 3/4
                                                                                                   (67 FR 64132)
            APPLES- Automated               PTA not
            Premium Process LAN E-          received as
            Mail System                     of 6/6/07
            CASE System Online              PTA not
                                            received as
                                            of 6/6/07
            CATS – Center Activity          PTA not                                                May be
            Track System                    received as                                            covered by
                                            of 6/6/07                                              Justice/INS
                                                                                                   013,
                                                                                                   CLAIMS 3/4
                                                                                                   (67 FR 64132)




       Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                               Page 35

Appendix H
Major Contributors to This Report



                       Roger Dressler, Director, Department of Homeland Security,
                       Information Technology Audits

                       Kevin Burke, Audit Manager, Department of Homeland Security,
                       Information Technology Audits

                       Beverly Dale, Senior Auditor, Department of Homeland Security,
                       Information Technology Audits

                       Domingo Alvarez, Senior Auditor, Department of Homeland
                       Security, Information Technology Audits

                       Matthew Worner, Senior Program Analyst, Department of
                       Homeland Security, Information Technology Audits

                       Basil Marcus Badley, Technical Evaluator, Department of
                       Homeland Security, Information Technology Audits

                       Syrita Morgan, Management and Program Assistant, Department
                       of Homeland Security, Information Technology Audits

                       Samer El-Hage, Management and Program Assistant, Department
                       of Homeland Security, Information Technology Audits

                       Meghan Sanborn, Referencer, Department of Homeland Security,
                       Information Technology Audits




      Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building


                                              Page 36

Appendix I
Report Distribution



                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretary
                       Under Secretary, Management
                       Director, USCIS
                       Assistant Secretary for Policy
                       Assistant Secretary for Public Affairs
                       Assistant Secretary for Legislative Affairs
                       Chief Information Officer
                       Deputy Chief Information Officer
                       Chief Privacy Officer
                       Chief Information Security Officer
                       Information Systems Security Manager, USCIS
                       DHS Audit Liaison
                       USCIS Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




      Technical Security Evaluation of USCIS Activities at the Chet Holifield Federal Building

                                              Page 37
Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
